         CONGRESSIONAL
            REPORT

 The Social Security Administration’s
Policies and Procedures Concerning the
    Rural Development Act of 1972
              A-13-02-22065




               April 2002
                                   SOCIAL SECURITY
                                      Office of the Inspector General

                                                April 29, 2002



The Honorable C. W. Bill Young
Chairman, Committee
 on Appropriations
House of Representatives
Washington, D.C. 20515

Dear Mr. Chairman:

The purpose of this report is to provide you information on the Social Security
Administration’s (SSA) policies and procedures to give first priority to the location of new
offices and other facilities in rural areas, as directed by the Rural Development Act
(RDA) of 1972.1

BACKGROUND

Public Law 107-67, section 647 requires, in part, that “. . . the Inspector General of each
applicable department or agency shall submit to the Committee on Appropriations, a
report detailing what policies and procedures are in place for each department or
agency to give first priority to the location of new offices and other facilities in rural
areas, as directed by the Rural Development Act of 1972.”

In a July 2001 report,2 the General Accounting Office (GAO) indicated that “8 of the
13 Cabinet agencies surveyed had no formal RDA siting policy, and there was little
evidence that agencies considered RDA's requirements when choosing a site for new
Federal facilities.” GAO found that “Federal agencies' mission requirements, such as
the need to be near clients or other organizations, apparently have led them to select




1
  7 U.S.C. § 2204b-1(b).
2
  United States GAO, Facilities Location Agencies Should Pay More Attention to Costs and Rural
Development Act, GAO-01-805 (2001), pp. 5, 35. This report responded to a request by
Senator Byron L. Dorgan that GAO develop information on the types of Federal functions that lend
themselves to being performed at locations other than Washington, D.C. and Federal regional cities. Id.
at 3. GAO also indicated in its report that the definition of “rural” used in RDA for Federal facilities siting is
unclear because the previous definition used by RDA for locating Federal facilities was eliminated by
amendment in 1996 Id. at 6-7.


              SOCIAL SECURITY ADMINISTRATION                     BALTIMORE MD 21235-0001
Page 2 - The Honorable C.W. Bill Young


urban areas.”3 GAO indicated that “other factors that led agencies to select urban areas
are the availability of public transportation and particular space needs.”4 However, GAO
also stated, among other things, that:5

·   Government functions, such as research and development, data processing,
    accounting and finance, and teleservice centers can be located in rural areas;

·   RDA has not had the influence on Federal siting practices that Congress appears to
    have intended when RDA was enacted;

·   Many agencies had no RDA policy, as required by the Act, and many agency
    personnel either did not consider the Act or did not know whether the Act was used
    in making their site selection; and

·   If agencies had RDA policies, and agency personnel were aware of and considered
    them, certain constraints would still exist that impede efforts to locate in rural areas,
    such as inadequate infrastructure for high-speed telecommunications, limited public
    transportation, and a limited labor force.

Each Federal agency that acquires real estate must comply with Federal laws and
Executive Orders.6 To acquire real estate, an agency must use its own statutory
authority, obtain delegated authority from the General Services Administration (GSA), or
go through GSA using GSA’s statutory authority.7 If an agency uses GSA’ statutory
authority, the agency must provide GSA the proposed geographic location for its new
offices.8 Selection of an office location should be consistent with the agency’s mission
and program requirements and in accordance with applicable regulations and statutes,
including RDA.9

According to SSA, its mission and programs require that it be easily accessible to the
public. In particular, SSA’s 1,340 field offices nationwide need to be located near the
beneficiaries they serve. However, SSA also has 36 teleservice centers and 1 data
operations center. As GAO noted, these types of facilities could be located in rural
areas.10




3
  Id. at 35.
4
  Id. at 35-36.
5
  Id. at 36.
6
  41 C.F.R. §§ 102-79.75, 102-79.80.
7
  41 C.F.R. §§ 102-72.10, 102-73.15. See also GAO-01-805, supra at 55.
8
  41 C.F.R. §§ 102-79.75, 102-79.80.
9
  41 C.F.R. §§ 102-79.60, 102-79.75, 102-79.80.
10
   GAO-01-805, supra at 36.
Page 3 - The Honorable C.W. Bill Young


RESULTS OF REVIEW

Our review found that SSA does not have policies and procedures in place to give
first priority to the location of new offices and other facilities in rural areas, as directed
by the RDA.

SSA does not have statutory authority or GSA-delegated authority to acquire real
estate. Consequently, SSA must use GSA to acquire all new office space. When SSA
needs new space, it prepares a Request for Space, Standard Form (SF-81). Upon
completion of the SF-81, SSA certifies to GSA that it has complied with all Federal laws
and Executive Orders governing the location of space, which includes RDA.

Although SSA’s completion of the SF-81 certifies compliance with requirements
governing the location of space, our review showed that SSA policies and procedures
did not provide any guidance for giving first priority to rural areas. In addition, we found
that SSA officials responsible for preparing SF-81s in SSA’s 10 regional offices did not
believe they were responsible for determining compliance with RDA. Five of the
10 regional officials stated it was GSA’s responsibility to ensure compliance with RDA.

We have advised SSA to develop policies and procedures to give first priority to the
location of new offices and other facilities in rural areas, as directed by the RDA. SSA
has informed us that it will correct this omission by drafting a policy statement with
respect to RDA later this fiscal year.

If you have any questions regarding this matter, please call me or have your staff
contact Douglas Cunningham, Special Assistant to the Inspector General, at
(202) 358-6319.

                                                    Sincerely,




                                                    James G. Huse, Jr.
                                                    Inspector General

cc:
The Honorable David Obey
Ranking Minority Member
Committee on Appropriations
House of Representatives
Washington, D.C. 20515
Page 4 - The Honorable C.W. Bill Young


The Honorable Robert C. Byrd
Chairman, Committee on Appropriations
United States Senate
Washington, D.C. 20510

The Honorable Ted Stevens
Ranking Minority Member
Committee on Appropriations
United States Senate
Washington, D.C. 20510
